Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENEML




REVIEW AND ADJUSTMENT OF IV-D

    CHILD SUPPORT ORDERS





                         Smvlcq
                    #i            ‘&?a
                &                   9
               +
           *                             JUNE GIBBS BROWN
          $
          <                              Inspector General
          z
          % ~
            %+-­                             APRIL1995
               >
              ‘+daa                         OEI-07-92-00990
Depafiment of Health and Human Services
        OFFICE OF
   INSPECTOR GENEML




REVIEW AND ADJUSTMENT OF IV-D
    CHILD SUPPORT ORDERS




            .*   SWJCE$,   ,
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries sewed by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the OffIce of Audit Semites, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                         OFFICE OF AUDIT SERVICES

The 010’s Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                         OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECTIONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared in the Kansas City Regional Office under the direction of James H.
Wolf, Regional Inspector General. Project staf~

               &@=?!!                                               Headmxwters

Raymond Balandron, Project Leader                           David Wright, Program Specialist
Linda Paddock, Program Inspection Assistant

To obtain a copy of this report, call the Kansas City Regional Office at (800)241-2527.
               EXECUTIVE                              SUMMARY

PURPOSE

To determine the status of States’ progress in, and major barriers to, fully
implementing the review and adjustment provisions for child support orders as
required by the Family Support Act of 1988.

BACKGROUND

Effective October 13, 1990, States are required to develop a plan for review and
adjustment of child support orders; initiate a review, should either parent or the IV-D
agency request one; and adjust support orders, where appropriate, in accordance with
State established guidelines. Additionally, effective October 13, 1993, States are
required to have implemented procedures whereby support orders will be reviewed no
later than 36 months from the date of establishment or last review, and adjusted in
accordance with States’ guidelines for support award amounts.

These recent amendments of the Family Support Act of 1988 reflect Congressional
concern in this area and its intent that an adjustment to a current child support order
be easier to obtain, and that such adjustment should be based on States’ rebuttable
child support guidelines.

This report is based on self-reported data from a mail survey which was sent to each
of the 54 State Child Support Enforcement agencies. All agencies responded.

STATUS OF STATES REVIEW AND ADJUSTMENT                              PROCESSES

All SLIJtechild support
                      agenciks have writkm pmcedurtw’gd@nes                h place to demonstrate
how their review and ad@rnentpnxefs     if lb jimctim

We verified this by obtaining copies of agencies’ written procedures/guidelines.

Rqganilas of procedUrwj@delines  being in plizcej two-think of State child supprt
agencies acknowkdge being behind in the review and adjustment requhmwnts.

Thirty-six (66 percent) of the child support agencies reported they are behind in
processing cases due for review.

l’hequarters   of StatZ   ch.iki support
                                      agencks       tick   an advanced   automated   system   which
hashindered their meeting thereview andadjWmentm#nmen&

Forty-one (76 percent) of the child support agencies reported that their current
automated system is antiquated causing problems and delays in processing review and
adjustment cases. Also, they are unable to produce statistical data from which


                                                i
management reports can be generated. All agencies did report they intend to have
advanced automated systems by September 30, 1995.

Abrwst half the State ~         citea lack of sta~g resources as another obticle      in
pmc&g     the huge number of revikw and adjustment cases.

Twenty-four (44 percent) of the child support agencies responded that their current
number of staff is unable to handle the large review and adjustment caseload.

Thee out often Sate child support agencies indicated that the inconsistency by States in
enforcing two sepuuti bztemtate laws makes it @7cuU and causes deihys in the pmcessihg
of review and adjustment cases.

Sixteen (thirty percent) of the State child support agencies report delays in processing

interstate cases due to two interstate laws, the Uniform Reciprocal Enforcement

Support Act (URESA), later revised and enacted as the Revised Uniform Reciprocal

Enforcement of Support Act (RURESA), and the Uniform Interstate Family Support

Act (UIFSA).


While all 54 States and territories had previously adopted some form of

URESA/RURESA as a matter of State law, concerns existed about State-to-State

variances in statute enforcement. In response, a new model act, UIFS~ was

approved and enacted in varying extent by 22 States. This model was endorsed by the

U.S. Commission on Interstate Child Support.


There are specific differences in these laws. Under URESA/RURES~          more than

one valid order could exist in a case at any one time, which causes confusion in

calculating an arrearage or determining which order to enforce. Under UIFSA Only�
one support order is in effect in a case at any one time and only that State has the

right to change the order.


State chiki suppmt agencies repti several other banim which present problems and
&lays in pmceiwing review and djustrnent cases.

Other barriers reported include the judicial process being too cumbersome, the court
system being too overloaded, conflict of interest issues, fiscal constraints, and
inadequate training/guidance from the Federal government.

OPPORTUMTIES FOR ACF TO IMPROVE STATES’ REVU3W AND
ADJUSTMENT PROCESSES

The Administration for Children and Families (ACF), Office of Child Support
Enforcement, has helped State child support agencies progress in this area. We
recognize that ACF is in no position to provide financing to overcome States’




                                            ii
perceived resource limits or address every barrier reported. However, we suggest that
ACF continue monitoring the situation and helping the States as much as possible. In
particular ACF should:

  .	   Communicate with States to determine their status in updating their automated
       systems, and continue to encourage and assist them in whatever ways possible
       to meet the October 1, 1995 deadline for having in effect an operational and
       certified computerized support enforcement system. The updated systems
       could ease the burden of limited staff, aid substantially in overcoming time
       delays, and provide an information retrieval system for statistical management
       reports.

  ●    In anticipation of a Federal mandate requiring all States to enact UIFS~
       continue technical assistance activities through training sessions on UIFS~ and
       using experienced child support practitioners in UIFSA to discuss and resolve
       implementation issues with those States which have not yet enacted UIFSA.

  .	   Continue to provide guidance and technical assistance to States helping them
       implement and fully understand their requirements for review and ad@ment.




                                           ...
                                           111
                     TABLE                 OF CONTENTS
                                                                                                     PAGE


EXECUTIVE        s~y
                                                                                                           .1

lNTRODUmON              ................................................
                                                                        PROCE=ES            . . . . . . ...3

STA71JS OF STAT=              REmW         AND o~~
                                                                                                                3
     Written procedures/@delines           arein place      ............................
                                                                                                                 3
     Many support agencies are behind inretiews                 ..........................

     Primary obstacle is lack of an updated automated system . . . . . . . . . . . . . . . . . 3
                                                                                                           .3

     Seconda~obstacle     islack of staffing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
                                                                                                             4
     Interstate laws cause delays inretiews    ...............................
                                                                                                              4
     Other bartiersefist     .............................................

 OPPOR~             FOR ACF TO IMPROW STAT=’ REWW AND                                                           .5
 ~w~pR~=Qo.0”.Q.0”.                   .“. OO.......’””...”...”..””’

 MPENDICES
                                                                                                        . . A-1

 fkComposite        of State Responses.         ................................

 B   Barriers Repotied       by State Child Support Agencies . . . . . . . . . . . . . . . . . . . . B-1
                         INTRODUCTION

PURPOSE

The purpose of this study is to determine the status of States’ progress in fully
implementing the review and adjustment provisions set out in Section 103(c) of the
Family Support Act of 1988.

BACKGROUND

Le@iWon/ReguMiom

The Administration for Children and Families (ACF), Office of Child Support

Enforcement (OCSE), is the organizational unit responsible for the administration of

the IV-D program. Section 103(c) of the Family Support Act of 1988 (P.L. 100-485)

requires the review and, as appropriate, adjustment of child support orders being

enforced under the IV-D program. Under section 103, the Social Security Act was

amended by adding a new section 466(a)(10)(A), effective October 13, 1990, which

required States to: develop a plan for review and adjustment of support orders;

initiate a review, in accordance with the plan, should either parent or the IV-D agency

request a review, and adjust support orders, where appropriate, in accordance with

State established guidelines.


Additionally, a new section 466(a) (10)(B), effective October 13, 1993, required States

to have implemented procedures whereby support orders enforced under title IV-D

will be reviewed not later than 36 months from the date the order was established or

last reviewed and adjusted in accordance with the States’ guidelines for support award

amounts. There are, however, the following exceptions: (1) in AFDC cases when it is

determined that the review would not be in the best interest of the child and neither

parent has requested a review, and (2) in non-AFDC cases where neither parent has

requested a review.


Under this legislation, States must noti~ each parent of the intent to review the child

support order and of their right to request such a review be conducted. Also, each

parent must be notified of a proposed adjustment in the award amount (or a

determination that there should be no change) and of the right to challenge such

adjustment or determination.


The Federal Register, Vol. 57, No. 249, dated December 28, 1992, states that

historically, most child support orders were not adjusted over the life of the order, and

thus failed to reflect circumstances which changed over time. Also, many times

parents failed to request adjustments because of the difficulty in proving such changed

circumstances. These recent provisions reflect Congressional concern in this area and

its intent that an adjustment to a current child support order be easier to obtain, and

that such adjustment should be based on States’ rebuttable child support guidelines.

Proposed regulations governing retiewand adjustment were published on Au@st 15,
1990. Final regulations governing therequirements   effective Octoberl3,  1990, were
published July 10, 1992. Final regulations governing the requirements effective
October, 13, 1993, were published December 28, 1992, at 45 CFR 302 and 303.

METHODOIX)GY

Preliminary activities undertaken in this inspection included reviewing applicable laws

and regulations. We held interviews with ACF/OCSE regional office staff to obtain a

perspective on their oversight activities for the region’s four States. We developed a

sumey document for the study and tested its effectiveness in two States, following up

with these States to discuss the information reported. We then made any necessary

revisions to the survey document. Contacts were also made with the ACF/OCSE

regional offices to determine if any reviews had been conducted. We concluded these

preliminary activities meeting with ACF/OCSE headquarter’s staff and discussed how

we planned to carry out our study.


The survey was mailed to each of the 54 State Child Support Enforcement agencies.

The survey contained primarily closed-ended questions and some open-ended

questions which were designed to retrieve responses that would address the purpose of

the study. States were also asked to submit copies of their written

procedures/guidelines for processing review and adjustment cases. All of the child

support agencies responded.


Following receipt and review of the survey documents, telephone contacts were made

to some child support agencies to clarify any questions raised by the information

provided in the survey. In some instances, child support agencies qualified some

responses with additional information and our interpretation was necessary in

determining the specific detail of the answer. Content analysis was used in

determining the results of the responses provided in the surveys.


Our intent in conducting this study was not to determine precisely how far behind or

ahead of schedule each State is in implementing the recent amendments regarding

review and adjustment of child support orders. Our preinspection work made it clear

to us that most States had fallen behind. We wanted to identi~ the rough order of

magnitude of the problem and identi~ the chief barriers that States believed that they

were facing. The self-reported data we gathered provided an appropriate basis for

doing that.


We conducted our review in accordance with the Qualdy Standards for Iizspections€
issued by the President’s Council on Integrity and Efficiency.





                                            2

    STATUS OF STATES’ REVIEW                                               AND
        ADJUSTMENT  PROCESSES

Based on our understanding of the review and adjustment process, and on our
discussions with ACF and State officials, we identified the key steps which we believe
would be necessaq for States to fully implement the new amendments. We then used
the sumey results to determine the progress made by each State. The results are
tabulated in Appendix A. Following is a summary of key elements of that analysis.

AU Stati child sup~   agencies have written pmcedkres/guiielina   in place to demmstrate
how their review and adjustrnentpmcim k to fiuwtio~

All 54 State child support agencies reported in the survey documents that they have
procedures/guidelines in place to demonstrate how their review and adjustment
process is to function. This was substantiated with copies of the procedures/guidelines
supplementing the sumey responses.

Regardless of Procedures/guidelines being in placq two-m  of State chikl suppofl
agenciks acknowledge beihg behhd ti the review and adjustment requ.iremenLR

Thirty-six, or 66 percent, of the child support agencies reported that they are behind in
processing those cases which are currently due for review and/or adjustment.
Additionally, based upon the overall responses of the support agencies, only five
(10 percent) appear to be fully operational, including an adequate automated system,
to process review and adjustment cases.

llwee-quarten of State child support agenciis ihck of an advanced automated system
which has hindked their meeting k review and adjustment requhments.

Forty-one, or 76 percent, of the child support agencies reported that their current
automated system is antiquated causing problems and delays in carrying out the review
and adjustment process. In addition, the agencies reported that without an advanced
automated system they are unable to produce statistical data from which management
reports can be generated. All of the child support agencies indicated they intend to
have an advanced automated system prior to September 30, 1995.

Almost half the Sate respondents cite a lack of sta~g resources as another obstaclk
facing State child suppoti agenciks in prz9c&g the huge number of review and
adjuWnent cases.

Twenty-four (44 percent) of the 54 child support agencies responded in their survey
that their current number of staff is insufficient to handle the large caseload brought
about by the review and adjustment provisions.


                                            3
Thee outoften State child suppoti agencies ideated    that the incorzsiktency by States in
enfdg     two sepmte intemtate lkws rnak it _         and cauws &lays ih the pmcessikg
of review and adjustment cases.

Sixteen (30 percent) of the State child support agencies report experiencing delays in
processing interstate cases due to the existence of two interstate laws, the Uniform
Reciprocal Enforcement of Support Act (URESA), later revised and enacted as the
Revised Uniform Reciprocal Enforcement of Support Act (RURESA), and the
Uniform Interstate Family Support Act (UIFSA).

All 54 States and territories had previously adopted some form of URESA/RURESA
as a matter of State law, although Federal law under Title IV-D does not mandate
that States have such laws or that State URESA/RURESA laws be consistent or
uniform. In response to concerns about State-to-State variances due to inconsistent
enactment, application, and interpretations of URESA/RURES~       a new model act
was approved and enacted, the Uniform Interstate Family Support Act (UIFSA). This
model act, was endorsed by the U.S. Commission on Interstate Child Support, which
urged Congress to mandate verbatim adoption of UIFSA by all States and territories.
To date, 22 States have enacted UIFSA though not necessarily in its entirety.

The primary difference between the two laws is, under URESA/RURES~            most
support proceedings are de novo, i.e., treated as new cases, resulting in more than one
valid, co-existing order in a case. This causes confusion when calculating an arrearage
or determining which order to enforce. Under UIFS~ only one support order is in
effect in a case at any one time. The method of enforcing the one order theory allows
only one State the right to change the order at any one time. This one State has what
is referred to as “continuing exclusive jurisdiction” over the case.

Stateddd suppwtagenciin repti several other baniers wtih present problems and
dekqw in pmc&g  review and adjustment cases.

In addition to the more serious barriers mentioned above, child support agencies

reported various other problematic conditions, such as the judicial process being too

cumbersome, the court systems being too overloaded, conflict of interest issues, fiscal

constraints, and inadequate training/guidance from the Federal government.

Appendix B presents the list of barriers to the review and adjustment process as

reported by the child support agencies.





                                            4

      OPPORTUNITIES    FOR ACF TO
     IMPROVE   STATES’ REVIEW   AND
        ADJUSTMENT    PROCESSES

The ACF, Office of Child Support Enforcement, has helped State child support
agencies progress in meeting the provisions for reviewing and adjusting IV-D child
support orders. We recognize that ACF is in no position to provide financing to
overcome states’ perceived resource limits or address every barrier reported.
However, we suggest that ACF continue monitoring the situation and helping the
States as much as possible. In particular ACF should:

       Communicate with States to determine their status in updating their automated
       systems, and continue as before, to encourage and assist them in whatever ways
       possible to meet the October 1, 1995 deadline for having in effect an
       operational and certified computerized support enforcement system. The ACF
       has successfully assisted some States with technical assistance workshops
       regarding the implementation of their systems, as well as some specialized
       workshops for States implementing systems based on like designs. However,
       other States may also be encountering problems. Planned technical and policy
       implementation workshops, on-site visits to States by Federal staff and the
       implementation of enhanced electronic communication capabilities between
       ACF and States definitely are positive steps. These kinds of activities can bring
       about the updated systems which could ease the burden of limited staff
       resources, aid substantially in overcoming time delays, and provide an
       information retrieval system for statistical management reports.

       In anticipation of a Federal mandate requiring all States to enact UIFS~
       continue technical assistance activities through training sessions on UIFS& as
       well as Federal/State workshops to design necessary interstate forms, and using
       experienced child support practitioners in UIFSA to discuss and resolve
       implementation issues with those States which have not yet enacted UIFSA.

       Continue to provide guidance and technical assistance to States helping them
       implement and fully understand their requirements for review and adjustment.
       Those activities already undertaken, such as the distribution of various training
       publications and personal staff presentations at numerous training conferences,
       are beneficial towards States’ moving to implement a fully operational review
       and adjustment process.




                                            5

      APPENDIX     A

COMPOS~   OF STA~ RESPONSES




             A-1

                              —
                                      COMPOSfTfZ017 STATE RESPONSES RfZFLfZCf’lNGPROBLEM AREAS
                                           IN PROCESSING REVIEW AND ADJUSIX4ENT CASES

     FACTORS OF STATE’S REVIEW
      AND ADJUSTMENT PROCESS
                                              AL]   AKIAZ
                                                                                                            ——
SIMChas proccxfurc..for reviewing                                                                Y   YYY    KY
:)rdcrs 36 months uhf
                                                                       –1—-l-—l-l-           —-I-I—--—-I————4——J———
StaIc has guidclincx for cstoblishing
sumrort amounts
SlatC11;1S
         iln mfCqu:llCnumber 0[ $iI:lf[
10review cases duc
S(atc smff arc arfcquatclyIraincd 10

couducl reviews

Wrlc srxccns cxxs duc bckrrc initialing
                                                     Y   YYYYYY
 full-SCalCreview

il

S[a(c has set standards which

warrant an adjustment

Sta[c dots not have problems with

interstate cases

Surtc produces statistical reports 10 rate

pcrksrmancc

SIaIc has complc;cd reviews of all

uppropri:ttc cxscs

SlaIc has a fully autonmtcd

syslcm 10 process duc cases

WI(c is not fully aulomotcd

but in[cmfs 10 bc hy 09/301’J5°

..—         ....    —=.-—-.-——- ._.=.

                                       YYY
                                              —.——          ~ 11-
                                               ._I..—=. -.-.=-
                                                         —-.  —=-
                                                               -—-     YYYYY


        Y=     YES (+)

        N=     NO (-)

        x=     NO RfiWONS13 DUE-m
 LEVEL OF NoN-cofwDLIANa           f-~
        o=     CANT DETERMNE (-)

      II II II II
      >Zxo




A-3
                                      COMPOSITE OF SI’ATE RESPONSES REFLECI’ING PROBLEM ~
                                           fN PROCESSING REWEW AND ADJUSTMENT CASES

FACfWRS OF STATE’S RIZVLEW
 AND ADJUSIT$WNTPROCESS                                                                          STATES
                                                                                                                                                                    —
                                         01 [       OK       (m    I’A   m   Iu   Sc   SD   IN     “Ix    UT       VI       v-l”       VA       WA w            w   WY

SMIChas procedures for                   Y          Y        Y     Y     Y   y    ~    y    -f     y      y        y        y          y        y       y       y
reviewingorders 36 months old           ~l—lJ—lJ—l—l—l—l*lJJ—l—
SIaIc has guidclinc$ for
xiurblishingsupport amounts
StaIc has an mfcquaIc number of
;[aff 10 review cases rluc
State staff arc adcquatciy
[rained to conducl reviews
Stale scrccns c2ses duc fwforc
initiating a foil-sdc rcvic%v
Staic has set standards which
warrant :or adjustment
SlillC(kXX not    II:IVC   probIcms
with interstate   GJSCS


State produces statistical
reports [0 ra[c pcrformwtcc
State km complctcctreviewsof
filloppropri:!tc cases
Slmc 11:1sa fulty wkmmlut syslcm
to process cases duc
SIatc is not fully automotcd             YYYYYYYY                                           Yyyyyyyy                                                            y
but intcnrfs to bc by 09/30/95                  I        I        lL._–J..——L                      1      1-   1        I          I        I       I       I


         Y=       YES (+)
         N=       NO (.}
         x=       NO I&PONSE DUE TO LEVEL OF NON-COMPLIANCE (-)
         o=       CANT DEIERMLNE (-)
        APPENDIX    B

      BARRIERS REPORTED
BY STATE CHILD SUPPORT AGENCIES




              B-1
                           Barriers Reported
                    by State ChildSupport Agencies

             Listed in sequence of the number of times noted

Antiquated   automation systems slow down the review and adjustment process
(41)

Insufficient staff resources make it difficult to meet overwhelming caseload
demands (24)

Timeframes are difficult to meet under the conditions listed above (15)

Two existing interstate laws make handling interstate cases troublesome      (12)

The judicial process is too cumbersome (8)

The court systems are too overloaded (8)

Conflict of interest issues raise legitimate concerns and slow the process down
(6)

Fiscal constraints can make it difficult to meet the review and adjustment
provisions (4)

The Federal government needs to provide training/guidance to child support
agencies so that they fully understand the review and adjustment regulations (3)

The inability to impute income hinders the review and adjustment process (2)

The review and adjustment process is a difficult process to implement (2)

Getting all parties’ cooperation is difficult and prolongs completing reviews (1)

Many cases due for review are eliminated from an actual review once the
review criteria is applied (1)

Cases could be easier to handle if standardized financial statements were used
by all support agencies (1)

It can be difficult to get wage information for self-employed individuals (1)

The Federal mandated timeframes for review and adjustment are longer than
those set for enforcing an initial order (1)

The cooperation from Federal employers is sometimes more difficult to attain
than other type employers (1)



                                   B-2

